                                  SOCIAL SECURITY
MEMORANDUM


Date:   September 20, 2002                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Summary   of Single Audit Oversight Activities (A-07-02-32035)


        The attached final Management Advisory Report presents a summary of internal control
        weaknesses at State Disability Determination Services reported in State single audits
        and identified during our October 2000 through April 2002 single audit oversight
        activities.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                        James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   SUMMARY OF SINGLE AUDIT
     OVERSIGHT ACTIVITIES
        OCTOBER 2000
          THROUGH
          APRIL 2002
   September 2002   A-07-02-32035



 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          Executive Summary
OBJECTIVE
Our objective was to summarize categories of internal control weaknesses at State
Disability Determination Services (DDS) reported in State single audits and identified
during our October 2000 through April 2002 single audit oversight activities.

BACKGROUND
On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156. The Amendments extended the statutory audit requirement to
nonprofit organizations and revised various provisions of the 1984 Single Audit Act,
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000. On June 30, 1997, the Office of Management and Budget
issued revised Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations to implement the 1996 amendments. The revised Circular A-133 was
effective July 1, 1996 and applies to audits of fiscal years (FY) beginning after
June 30, 1996. This Circular requires non-Federal entities that expend $300,000 or
more per year in Federal awards to have a single or program-specific audit conducted
for that year.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the Disability Insurance (DI) and Supplemental Security Income
(SSI) programs. In accordance with Federal regulations,1 the DDS in each State
generally performs disability determinations under the DI and SSI programs. In carrying
out this function, the DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations.2 SSA
reimburses the DDS for 100 percent of allowable expenditures. There are a total of
54 DDSs in the 50 States, the District of Columbia, Puerto Rico, Guam, and the Virgin
Islands. All DDSs are subject to single audit coverage except the federally administered
Virgin Islands DDS.

RESULTS OF REVIEW
We reviewed 103 single audits covering State fiscal year (SFY) operations at 53 DDSs
(1 SFY 1997 single audit, 1 SFY 1998 single audit, 51 SFY 1999 single audits, and
50 SFY 2000 single audits). We compiled and categorized the audit findings as direct
or crosscutting. Direct findings are those specifically identified to the DDS.
Crosscutting findings impact more than one Federal program; however, they may not be
identified to any one Federal program or may not be identified to all Federal programs.

1
    20 C.F.R. §§ 404.1601-1618 and 416.1001-1018.
2
    20 C.F.R. §§ 404.1614 and 416.1014.


Summary of Single Audit Oversight Activities (A-07-02-32035)                             i
Our review disclosed common direct and crosscutting findings in the categories of cash
management, equipment and real property management, and allowable costs. We also
identified crosscutting findings in procurement and reporting categories. All the findings
relate to DDS’ noncompliance with Federal requirements because of internal control
weaknesses. Of the 103 single audits, 25 reported direct findings, and 89 reported
crosscutting findings (see Appendix A).

Our review of the 25 single audits with direct findings disclosed:

·     non-adherence to Cash Management Improvement Act (CMIA) agreements,
·     weaknesses in computer controls,
·     weaknesses in equipment inventory,
·     costs that were not properly authorized and documented, and
·     improper accounting and reporting of non-SSA work costs.

We conduct audits of DDS administrative costs. Our recent audits of the Oregon,
Connecticut and Arizona DDSs disclosed findings in the cash management,
procurement, equipment and real property management, reporting, and allowable costs
categories. These findings relate to DDS’ noncompliance with Federal requirements
because of internal control weaknesses. Appendix D summarizes our findings.

A comparison of the Oregon, Connecticut, and Arizona DDS single audit findings and
audits for the same reporting period disclosed significant differences. We reported our
findings on incorrect FY payments, excess cash draws, inconsistent accounting
obligations, inadequate computer access and security controls, missing inventory
records, inaccurate and inconsistent reporting, and unreasonable medical fees. The
single audits for Oregon, Connecticut, and Arizona did not report these findings. We
present this comparison for informational purposes only. We will report our comparison
to the cognizant Federal agency, the Department of Health and Human Services, in a
separate management letter for any action it deems appropriate.

CONCLUSIONS AND RECOMMENDATIONS
The first five recommendations listed below were presented to SSA in our prior single
audit summary report.3 Therefore, SSA should not consider these new
recommendations for its audit recommendation tracking system. We do, however,
reaffirm our position that SSA should take corrective action by being proactive in
providing internal control guidance to DDSs. To do so, SSA should provide the
following instructions to DDSs.

·     Adhere to the terms of the CMIA agreement.

·     Implement controls to prevent unauthorized computer access.


3
    Summary of Fiscal Year 2000 Single Audit Oversight Activities (A-07-00-10032).


Summary of Single Audit Oversight Activities (A-07-02-32035)                            ii
·   Develop a formal contingency plan to be followed in the event of a disaster that
    adversely affects operations.

·   Maintain complete and accurate equipment inventory records and perform periodic
    physical inventories.

·   Ensure that costs charged to SSA benefit its programs and are properly authorized
    and documented.

·   Implement controls to ensure that non-SSA work costs are properly accounted for
    and reported.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations and
outlined the corrective action taken on each recommendation. See Appendix E for the
full text of SSA's comments to our draft report.




Summary of Single Audit Oversight Activities (A-07-02-32035)                           iii
                                                           Table of Contents
                                                                                                                      Page


INTRODUCTION...........................................................................................................1

RESULTS OF REVIEW ................................................................................................5

    Cash Management...................................................................................................5

    Equipment and Real Property Management ............................................................7

              Computer Controls ........................................................................................7

              Property Controls ..........................................................................................8

    Allowable Costs .......................................................................................................9

    Comparison of Single Audit and OIG Findings ......................................................12

              Oregon DDS................................................................................................12

              Connecticut DDS.........................................................................................13

              Arizona DDS ...............................................................................................13

CONCLUSIONS AND RECOMMENDATIONS...........................................................14

APPENDICES

APPENDIX A – Summary of Single Audit Findings

APPENDIX B – Direct Findings Reported in 25 Single Audits

APPENDIX C – Crosscutting Findings Reported in 89 Single Audits

APPENDIX D – Findings We Identified During the Same Time Frame as the
             Single Audits Reviewed

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Summary of Single Audit Oversight Activities (A-07-02-32035)
                                                               Acronyms
AIF                   Automated Investment Funds
AIS                   Automated Information Systems
CMIA                  Cash Management Improvement Act
DDS                   Disability Determination Services
DES                   Department of Economic Security
DHS                   Department of Human Services
DI                    Disability Insurance
DLES                  Department of Labor and Employment Security
DPHHS                 Department of Public Health and Human Services
DoE                   Department of Education
DoF                   Department of the Family
DRS                   Department of Rehabilitation Services
DSS                   Department of Social Services
DVR                   Division of Vocational Rehabilitation
EDP                   Electronic Data Processing
EIS                   Equipment Inventory System
FY                    Fiscal Year
LAE                   Limitation on Administrative Expenses
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
POMS                  Program Operations Manual System
SEFA                  Schedule of Expenditures of Federal Awards
SFY                   State Fiscal Year
SSA                   Social Security Administration
SSI                   Supplemental Security Income




Summary of Single Audit Oversight Activities (A-07-02-32035)
                                                                    Introduction
OBJECTIVE
Our objective was to summarize categories of internal control weaknesses at State
Disability Determination Services (DDS) reported in State single audits and identified
during our single audit oversight activities. To accomplish our objective, we reviewed
103 single audits covering 53 DDSs1 and categorized findings that were identified as
directly affecting DDS operations and crosscutting findings that potentially affect DDS
operations. Of the 103 single audits, 25 reported direct findings and 89 reported
crosscutting findings. Appendix A lists the 103 single audits reviewed and identifies
those with direct and/or crosscutting findings.

                                                 Findings
                                 Crosscutting    Direct and Crosscutting   None




1
  The 103 single audits included 1 State fiscal year (SFY) 1997 single audit, 1 SFY 1998 single audit,
51 SFY 1999 single audits, and 50 SFY 2000 single audits. Michigan, North Dakota, and Montana issue
biennial single audits. Therefore, SFY 1999 single audit results were included with the SFY 2000 single
audit for Michigan and North Dakota. The Montana SFY 2000 single audit results will be reported in the
SFY 2000-2001 single audit. The SFY 2000 single audits for the District of Columbia and Puerto Rico
have not been completed by the auditors. The federally administered Virgin Islands DDS is not required
to have a single audit.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                              1
BACKGROUND
Single Audit Act

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156. The Amendments extended the statutory audit requirement to
nonprofit organizations and revised various provisions of the 1984 Single Audit Act,
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000. On June 30, 1997, the Office of Management and
Budget (OMB) issued revised Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, to implement the 1996 amendments. The revised Circular
A-133 was effective July 1,1996 and applies to audits of fiscal years (FY) beginning
after June 30, 1996. This Circular requires non-Federal entities that expend $300,000
or more per year in Federal awards to have a single or program-specific audit
conducted for that year.

State DDSs

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act to provide benefits to disabled wage earners and their families. In 1972,
Congress enacted the Supplemental Security Income (SSI) program, to provide income
and disability coverage to financially needy individuals who are aged, blind and/or
disabled.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the DI and SSI programs. According to Federal regulations,2 the
DDS in each State generally performs disability determinations under the DI and SSI
programs. In carrying out this function, the DDS is responsible for determining
claimants’ disabilities and ensuring that adequate evidence is available to support its
determinations.3 In those limited instances where SSA makes disability determinations,
regulations provide that each State agency will obtain and furnish medical or other
evidence and provide assistance as may be necessary for SSA to carry out its
responsibility for making such determinations.4 SSA reimburses the DDS for
100 percent of allowable expenditures. There are a total of 54 DDSs in the 50 States,
the District of Columbia, Puerto Rico, Guam, and the Virgin Islands.

Each DDS is managed by a State parent agency, which administers other State and
Federal programs. There are also other agencies within the State that administer
various aspects of Federal programs, such as cash draws and electronic data
processing.


2
    20 C.F.R. §§ 404.1601-1618 and 416.1001-1018.
3
    20 C.F.R. §§ 404.1614 and 416.1014.
4
    Id.


Summary of Single Audit Oversight Activities (A-07-02-32035)                             2
Direct and Crosscutting Findings

In conducting single audits, the auditor uses a risk-based approach to determine which
Federal programs will receive audit coverage. The single audit also includes an audit of
the State’s financial statements. The two parts of the single audit identify direct or
crosscutting findings.

Direct findings are specifically identified to the Federal programs they affect. The direct
SSA findings are identified in single audits by Catalog of Federal Domestic Assistance
number 96. The single audits also report findings that impact more than one Federal
program, referred to as crosscutting. However, crosscutting findings may not be
identified to any one Federal program or may not be identified to all Federal programs.
Thus, the auditor may not be in a position to identify findings for SSA-funded programs
because of the limited scope of the single audit. While crosscutting findings are not
specifically identified to SSA, they could impact DDS operations.

SCOPE AND METHODOLOGY
We reviewed 103 single audits as well as their related recommendations and auditee
responses. Of the 103 single audits, 25 reported direct findings related to DDSs.
These findings, questioned costs, and related recommendations were previously
reported on a State-by-State basis to SSA’s Management Analysis and Audit Program
Support Staff for resolution. In addition, 89 of the 103 single audits reported
crosscutting findings that could possibly affect DDS operations. To identify crosscutting
findings, we reviewed all findings reported for the State agency that managed the DDS
and State agencies that performed functions for the DDS.

We also reviewed relevant provisions of the:

§   Single Audit Act Amendments of 1996, revised OMB Circular A-133, and OMB
    Circular A-133, Compliance Supplement (March 2000 revision);

§   OMB Uniform Administrative Requirements for Grants and Cooperative Agreements
    to State and Local Governments (Common Rule);

§   OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments;

§   Title II and title XVI of the Social Security Act;

§   Program Operations Manual System (POMS) instructions;

§   Cash Management Improvement Act (CMIA) of 1990;

§   SSA Systems Security Handbook; and




Summary of Single Audit Oversight Activities (A-07-02-32035)                              3
§   Office of the Inspector General (OIG) administrative cost audit reports for the
    Oregon, Connecticut, and Arizona DDSs.5

The Compliance Supplement identifies seven types of compliance requirements
auditors should consider for the SSA programs in performing single audits. Our review
of the 103 single audits identified common direct findings in 3 of the categories: cash
management, equipment and real property management, and allowable costs. In
addition to these categories, we identified crosscutting findings in the procurement and
reporting categories. This report presents the findings by the related Compliance
Supplement category.




5
 OIG audits of the Oregon, Connecticut, and Arizona DDSs are the only OIG audits covering the same
period as the single audits discussed in this report.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                         4
                                            Results of Review
Our analysis of the findings in 103 single audit reports disclosed direct and crosscutting
findings in the cash management, equipment and real property management, and
allowable cost categories. We also identified crosscutting findings in the procurement
and reporting categories. All the findings relate to DDS’ noncompliance with Federal
requirements because of a lack of adequate internal controls. Appendix B summarizes
the 25 single audits with direct findings by DDS. Appendix C summarizes the 89 single
audits with crosscutting findings by DDS.

Our audits at the Oregon, Connecticut, and Arizona DDSs disclosed findings in the cash
management, procurement, equipment and real property management, reporting, and
allowable cost categories. These findings also relate to DDS’ noncompliance with
Federal requirements because of internal control weaknesses. Appendix D summarizes
our audit findings.

In our opinion, a comparison of the Oregon, Connecticut, and Arizona DDS findings in
the single audits and the OIG audits for the same reporting period disclosed significant
differences. We reported findings on incorrect FY payments, excess cash draws,
inconsistent accounting obligations, inadequate computer access and security controls,
missing inventory records, inaccurate and inconsistent reporting, and unreasonable
medical fees. The single audits for Oregon, Connecticut, and Arizona did not report
these findings. We present this comparison for informational purposes only. We will
report our comparison to the cognizant Federal agency, the Department of Health and
Human Services, in a separate management letter for any action it deems appropriate.

CASH MANAGEMENT
The Congress enacted the CMIA of 19906 to ensure efficiency, effectiveness, and
equity in transferring funds between the States and the Government. This Law requires
the Government to enter into an agreement with States covering applicable Federal
programs and to establish procedures and requirements for transferring Federal funds.7

The CMIA requires the States to minimize the time between the receipt and
disbursement of Federal funds and generally allows the Government to charge interest
when a State receives Federal funds in advance of disbursements.8 The CMIA also




6
    Pub. L. No. 101-453.
7
    31 C.F.R. § 205.9.
8
    31 C.F.R. §§ 205.11 and 205.15.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                 5
generally allows the States to charge interest when State funds are paid out for Federal
programs before Federal funds are made available.9 The States are supposed to
calculate Federal and State interest liabilities for each applicable program10 and report
liabilities to the Federal Government on the Annual Report to the U.S. Department of
the Treasury.11

Without cash management controls, States cannot identify and assess allowable cash
needs. Without proper internal controls, DDSs may draw cash in excess of allowable
expenditures.

Seven single audits reported direct findings related to States not adhering to CMIA
agreements.

·     The Alabama Department of Education (DoE) did not draw funds in accordance with the
      funding techniques specified in the CMIA agreement, and the dates posted in the
      accounting system and used to compute interest liabilities were incorrect (SFY 1999).

·     The Colorado Department of Human Services (DHS) did not follow draw patterns
      prescribed in the CMIA agreement. In addition, the CMIA agreement included
      programs that were not required and omitted programs that were required
      (SFY 2000).

·     The Illinois DHS understated interest liabilities due the Government by $69,219, of
      which $12,994 related to SSA (SFY 1999).

·     The Oklahoma Department of Rehabilitation Services (DRS) did not maintain
      documentation to support cash draws, and funds were not drawn based on the time
      frame established in the CMIA agreement (SFY 2000).

·     The Puerto Rico Department of the Family (DoF) drew cash of $939,771 without
      required documentation showing it was needed to pay immediate expenditures. Our
      discussions with the Public Accounting Firm that conducted the audit disclosed that
      DoF told the auditor the accounting records were adjusted to ensure the
      $939,771 cash draw did not result in excess FY cash draws. However, DoF did not
      provide evidence of the adjustment to the auditor upon request, which resulted in the
      auditor questioning the costs (SFY 1997).

·     The Rhode Island DHS drew funds earlier than permitted by the terms of the CMIA
      agreement because there were no controls to monitor cash needs (SFYs 1999 and
      2000).


9
    31 C.F.R. § 205.14.
10
     31 C.F.R. § 205.19.
11
     31 C.F.R. § 205.26.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                6
The State audits identified similar crosscutting cash management findings in 29 single
audits (see Appendix C).

EQUIPMENT AND REAL PROPERTY MANAGEMENT
Computer Controls

DDSs operate computer systems critical to the administration of SSA’s disability
programs. These systems issue payments for administrative expenses and contain
confidential claimant information, including Social Security numbers. SSA requires
DDSs to develop, distribute, and implement a formal computer security policy
addressing the confidentiality of sensitive information, data integrity, and authorized
access to information.12

A DDS’ computer security policy should identify computer access controls to ensure
only authorized users access the system. Access controls include the use of personal
identification numbers to identify users, passwords to authenticate the user’s identity,
and profiles to specify the functions users can perform. Without proper access controls,
the DDS is vulnerable to such security risks as the unauthorized use or sale of personal
information and identity theft. Accidental or intentional modifications to confidential and
sensitive information can adversely affect the quality of services and lead to
unauthorized and inaccurate disbursements.

SSA’s Systems Security Handbook instructs DDSs to make every reasonable effort to
avoid disruption of critical applications processed by automated data files and
automated information systems (AIS) facilities.13 Furthermore, a DDS must also
minimize, and be prepared to recover from, any disruption that occurs. Contingency
plans should be documented as part of a DDS’ overall AIS security program.14 The lack
of a contingency plan could cause a disruption of DDS claims processing and result in
poor service to disability claimants.

Seven single audits disclosed direct findings related to weaknesses in computer
controls, as follows.

·      The Alabama DoE had not developed a formal contingency plan to be followed in
       the event of a disaster that adversely affects the operations of its in-house data
       processing center (SFY 1999). DoE subsequently developed a plan; however, the
       SFY 2000 single audit reported that the contingency plan was not communicated to
       personnel responsible for execution of the plan, and had not been adequately
       updated and tested.


12
     POMS DI 39536.220.
13
     SSA’s System Security Handbook, December 1998, chapter 13 – Contingency Planning.
14
     Id.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                7
      In addition, policies and procedures for systems (1) development and maintenance
      were informal and did not provide appropriate segregation of duties among data
      processing personnel and (2) access by users and data processing personnel were
      inadequate (SFY 2000).

·     The Kentucky DDS did not have formal policies and procedures to control its Wang
      system program modifications. Specifically, there was no segregation of duties
      between the DDS’s systems support and program control personnel (SFY 1999).

·     Some Minnesota Department of Economic Security (DES) employees had
      inappropriate access to mainframe data. In addition, the DES did not properly
      maintain its security infrastructure (SFY 2000).

·     A disaster recovery plan had not been designed or tested for the new accounting
      system for the New Mexico DoE, Division of Rehabilitation (SFYs 1999 and 2000).

·     The Oklahoma DRS did not have (1) procedures in place to ensure that only
      authorized personnel had appropriate access to mainframe data, (2) a fire
      suppression system in its computer room, and (3) a disaster recovery plan to be
      followed in the event of a disaster that adversely affects operations (SFY 2000).

Similar crosscutting computer systems and applications findings were identified in
30 single audits (see Appendix C).

Property Controls

The DDSs are responsible for maintaining, labeling, and inventorying all property they
acquire or that SSA furnishes it to perform the disability determination function.15
Inventory records of equipment must include (1) an item description, (2) source of funds
used in the purchase, (3) unit cost, (4) inventory or serial number, (5) date purchased,
and (6) physical location, including building address and room or floor location.16 The
lack of proper controls over inventory could result in misappropriation or improper
disposition of property acquired with Federal funds.

Five single audits identified direct findings related to weaknesses in equipment inventory.

·     The Georgia Department of Human Resources did not follow established inventory
      maintenance guidelines (SFY 2000).

·     The Puerto Rico DoF did not reconcile physical inventory results with the accounting
      records or maintain accurate records for acquisitions and dispositions of property
      acquired with SSA funds (SFYs 1997 and 1998).


15
     POMS DI 39530.020.A.
16
     POMS DI 39530.020.B.4.


Summary of Single Audit Oversight Activities (A-07-02-32035)                              8
·     The Rhode Island DHS did not have a state-wide inventory system for fixed assets
      (SFYs 1999 and 2000). In addition, there were no procedures to ensure compliance
      regarding the use, management, and disposition of equipment (SFY 2000).

Similar crosscutting property control findings were identified in 18 single audits (see
Appendix C).

ALLOWABLE COSTS
Allowable costs must be reasonable and necessary for proper and efficient performance
and administration of Federal awards.17 A cost is allocable to a program or department
if the goods or services involved are charged or assigned in accordance with benefits
received.18 A cost may not be assigned to a Federal award as a direct cost if any other
cost incurred for the same purpose was allocated to the Federal award as an indirect
cost.19 To recover indirect costs, the organization must prepare cost allocation plans or
indirect cost rate proposals in accordance with guidelines provided in OMB Circulars.20
Costs must be net of all applicable credits that result from transactions reducing or
offsetting direct or indirect costs.21

Internal control directives require that non-Federal entities receiving Federal awards
maintain effective control and accountability for funds and assets purchased with such
funds.22 Transactions should be properly recorded, accounted for, and executed in
compliance with applicable laws, regulations and the provisions of contracts or grant
agreements that could have a direct and material effect on a Federal program.23 Also,
funds, property, and other assets should be safeguarded against loss from unauthorized
use or disposition.24

The absence of controls over goods and services charged to Federal awards results in
the risk of misappropriation or misuse of funds. In addition, unallowable activities or
costs could be charged to a Federal program and not be detected in a timely manner if


17
     OMB Circular A-87, Attachment A, part C.1.a.
18
     OMB Circular A-87, Attachment A, part C. 3. a.
19
     OMB Circular A-87, Attachment A, part C.1.f.
20
     OMB Circular A-87, Attachment A, part C.4. and F.
21
     OMB Circular A-87, Attachment A, part C.4.
22
 Uniform Administrative Requirements for Grants and Cooperative Agreements to State and Local
Governments, OMB Common Rule, subpart C, § 20(b)(3).
23
     OMB Circular A-133, § 105.
24
     OMB Common Rule, subpart C, section 20(b)(3) and OMB Circular A-133, § 105.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                    9
proper internal controls are not in place to ensure that costs benefit the program and are
properly authorized and documented.

Nineteen single audits reported direct findings related to inadequate internal controls
over allowable costs.

·     The Alabama DoE did not have certifications to document that its employees worked
      solely on SSA's disability programs, as required by OMB Circular A-87 (SFY 1999).

·     The Arizona DES’ cost allocation plan did not include all equipment purchases in the
      allocation base. As a result, costs were not properly allocated to Federal programs
      (SFY 1999).

·     The Florida Department of Labor and Employment Security (DLES)25 inappropriately
      charged SSA $151,005 for payments of accumulated leave of terminated or retired
      employees. The payments should have been allocated as an administrative
      expense to all DLES activities, as required by OMB Circular A-87. In addition,
      $22,607 in salary costs for a DDS employee who performed non-SSA work were
      inappropriately charged to SSA (SFY 2000).

·     The Illinois DHS inappropriately charged SSA $90,000 for personnel and other costs
      in support of non-SSA work because there was no approved cost allocation
      methodology and Memorandum of Understanding (SFY 1999). In addition, the
      Illinois DDS did not maintain supporting documentation for payroll costs for
      employees who worked solely on the disability program (SFY 2000). The auditor
      could not determine the costs inappropriately charged to SSA.

·     The Michigan DDS did not maintain supporting documentation for payroll costs for
      employees who worked solely on the disability program. This resulted in questioned
      costs of $2,809 and $6,377 (SFYs 1999 and 2000).

·     The Mississippi DRS did not have a system in place to adequately document the
      personnel costs charged to Federal programs. In addition, personnel costs of DDS
      employees who performed non-SSA work were inappropriately charged to SSA.
      However, the State auditor did not determine the amount of these unallowable
      charges (SFY 1999).

·     The Montana Department of Public Health and Human Services’ (DPHHS) financial
      management control structure was not adequate to prevent or detect all errors.
      Therefore, the DPHHS could not ensure payments were made for allowable
      purposes. Specifically, inefficient transaction processing did not support Federal
      reporting or an accurate allocation of costs between State and Federal programs or
      prevent discrepancies between the State’s primary accounting system and its
      subsystems (SFY 1999).

25
     The DLES changed its name to the Department of Health, effective January 1, 2000.


Summary of Single Audit Oversight Activities (A-07-02-32035)                              10
·   The New Mexico DDS's accounting system's design did not allow a reconciliation of
    DDS encumbrances and related expenditures with the State's accounting system
    (SFYs 1999 and 2000).

·   The New York Department of Social Services, Office of Temporary and Disability
    Assistance (1) inappropriately charged SSA $475,785 for non-SSA, work-related
    activities (SFY 1999); (2) inappropriately charged non-SSA programs $760,211 for
    SSA work-related activities (SFY 2000); (3) did not follow cost allocation
    methodology procedures set forth in OMB Circular A-87 (SFYs 1999 and 2000);
    (4) did not charge parking costs of $1,700 to various Federal programs in
    accordance with OMB Circular A-87 (SFY 1999); (5) incorrectly recorded employee
    salaries of $158,201 and $4,263 in the State’s payroll system because of errors in
    employee timesheets (SFYs 1999 and 2000); (6) did not maintain documentation to
    support a $38,129 expenditure (SFY 2000); and (7) did not properly authorize a
    $1,785 expenditure (SFY 2000).

·   The Puerto Rico DoF (1) paid an employee $725 above the authorized salary
    (SFY 1997); (2) did not maintain supporting documentation for expenditures of
    $753,217, $170,768, and $4,214,001 (SFYs 1997 through 1999); (3) did not
    maintain documentation to support expenditure amounts to test the base used for
    indirect costs (SFYs 1998 and 1999); (4) claimed expenditures on the Financial
    Status Reports that were $899,764 greater than amounts recorded in the general
    ledger (SFY 1999); and (5) did not compare expenditures with budgeted amounts
    before disbursing Federal funds of $172,354 (SFY 1999).

·   The Rhode Island DHS allocated central service costs to various Federal programs,
    including SSA’s Disability programs, based on an estimated amount. Once actual
    amounts were available, DHS adjusted current year charges to account for the
    overcharge in previous FYs (SFY 2000).

·   The West Virginia DoE, Division of Rehabilitation Services, inappropriately charged
    $1,552,922 in indirect costs to SSA (SFY 2000).

·   SSA might have reimbursed the Wisconsin Division of Vocational
    Rehabilitation (DVR) for client rehabilitation services based on incorrect
    administrative costs. The State auditors could not determine how SSA’s
    reimbursement amount was calculated because DVR did not retain the supporting
    documentation (SFY 2000).

Crosscutting weaknesses related to allowable costs were disclosed in 62 single audits.
The findings were in the following areas.

·   Payroll costs charged to Federal programs were not supported by time and
    attendance records. In addition, payroll costs were charged to Federal programs on
    which employees did not work.


Summary of Single Audit Oversight Activities (A-07-02-32035)                          11
·   Obligations were not liquidated within the established time limits, items were not
    reconciled timely, and expenditures were not claimed within the period of availability.

·   Indirect costs were not properly authorized, included costs charged directly to
    Federal programs, and were not equitably distributed to Federal programs.

·   Direct costs charged to Federal programs were not properly authorized, reviewed,
    documented, or recorded.

COMPARISON OF SINGLE AUDIT AND OIG FINDINGS
SSA OIG conducts audits of claims by DDSs for administrative costs based on the
frequency of prior audits as well as annual referrals by SSA’s Office of Disability.
Starting in FY 2002, we increased our audit coverage to provide for a more timely and
effective review of administrative costs. We based this schedule on the following
factors: (1) past administrative audits, (2) amount of costs, and (3) suggestions made
by SSA. The audit frequency, based on total administrative costs incurred, is as
follows.

            Annual Administrative Cost                         Audit
                Incurred by DDS                             Frequency
                 Over $50 million                          Every 3 years
                $20 to $50 million                          5 to 7 years
                Under $20 million                          7 to 10 years

The objectives of the audits are to determine whether (1) expenditures and obligations
are properly authorized and disbursed, (2) Federal funds drawn agree with total
expenditures, and (3) internal controls over the accounting and reporting of
administrative costs are adequate.

We performed administrative cost audits at the Oregon, Connecticut, and Arizona DDSs
covering the same SFYs as the single audits discussed in this report. Our comparison
of the direct single audit findings and OIG findings disclosed notable differences. Our
findings were not identified in the single audits and therefore are discussed below.

Oregon DDS

Our audit of the Oregon DDS covered the period October 1995 through
September 1998 and included any subsequent financial activities that affected those
FYs as of December 31, 1999. The audit identified expenditures for rental payments
reported in the wrong FY and excess cash draws (see Appendix D). The single audit
did not report any direct findings for the Oregon DDS.




Summary of Single Audit Oversight Activities (A-07-02-32035)                             12
Connecticut DDS

Our audit of the Connecticut DDS covered the period October 1996 through
September 1999, as reported to SSA as of December 31, 1999. The audit identified
(1) expenditures reported in the wrong FY, (2) an unapproved office lease, and (3) weak
computer security and access controls (see Appendix D). The single audit did not
report any direct findings for the Connecticut DDS.

Arizona DDS

Our audit of the Arizona DDS covered the period October 1995 through
September 1998 and included any subsequent financial activities that affected those
FYs as of June 30, 1999. The audit identified (1) inconsistent accounting and reporting
of obligations, (2) missing inventory records, and (3) unreasonable medical fees (see
Appendix D). The single audit identified problems related to allowable costs (see
Appendix B).




Summary of Single Audit Oversight Activities (A-07-02-32035)                          13
                                                  Conclusions and
                                                 Recommendations
The first five recommendations listed below were presented to SSA in our prior single
audit summary report.26 Therefore, SSA should not consider these new
recommendations for its audit recommendation tracking system. We do, however,
reaffirm our position that SSA should take corrective action by being proactive in
providing internal control guidance to DDSs. To do so, SSA should provide the
following instructions to DDSs.

·     Adhere to the terms of the CMIA agreement.

·     Implement controls to prevent unauthorized computer access.

·     Develop a formal contingency plan to be followed in the event of a disaster that
      adversely affects operations.

·     Maintain complete and accurate equipment inventory records and perform periodic
      physical inventories.

·     Ensure that costs charged to SSA benefit its programs and are properly authorized
      and documented.

·     Implement controls to ensure that non-SSA work costs are properly accounted for
      and reported.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations and
outlined the corrective action taken on each recommendation. See Appendix E for the
full text of SSA's comments to our draft report.




26
     Summary of Fiscal Year 2000 Single Audit Oversight Activities (A-07-00-10032).



Summary of Single Audit Oversight Activities (A-07-02-32035)                              14
                                            Appendices




Summary of Single Audit Oversight Activities (A-07-02-32035)
                                                                                                                                                                   Appendix A
Summary of Single Audit Findings
                                                                                                      1                                                                                                2
                                                              Direct Findings                                                                     Crosscutting Findings




                                                                                                                                                                   Property Management4
                                                                          Property Management4
                                         Cash Management




                                                                                                                                Cash Management
                             State




                                                                          Equipment/Real




                                                                                                                                                                   Equipment/Real
                                                                                                              Allowable Costs




                                                                                                                                                                                                           Allowable Costs
                             Fiscal
                 State




                                                                                                                                                    Procurement3
                                                           Procurement3
                              Year




                                                                                                 Reporting5




                                                                                                                                                                                          Reporting5
    Alabama                1999/2000       X                                    X                               X                                                        X
    Alaska                 1999/2000                                                                                                                                                        X                X
    Arizona                1999/2000                                                                            X                                                        X                  X                X
            6
    Arkansas               1999/2000
    California             1999/2000                                                                                              X                                                         X
    Colorado               1999/2000       X                                                                    X                                                                           X                X
    Connecticut            1999/2000                                                                                              X                    X                 X                                   X
    Delaware               1999/2000                                                                                              X                                                         X
    District of Columbia     1999                                                                                                 X
    Florida                1999/2000                                                                            X                 X                                                                          X
    Georgia                1999/2000                                            X                                                                                        X
    Guam                   1999/2000                                                                                              X                    X                 X                  X                X
    Hawaii                 1999/2000                                                                                                                                     X                  X                X
    Idaho                  1999/2000                                                                                              X                                                                          X
    Illinois               1999/2000       X                                                       X            X                                                        X                                   X
             7
    Indiana                1999/2000
    Iowa                   1999/2000                                                                                                                                     X
    Kansas                 1999/2000                                                                                                                                                        X                X
    Kentucky               1999/2000                                            X                                                 X                                      X                  X                X
    Louisiana              1999/2000                                                                                              X                    X                 X                                   X

1
    See Appendix B for detailed direct findings.
2
    See Appendix C for detailed crosscutting findings.
3
    Because there was one direct finding identified in this category, it is not identified in this report for
    resolution.
4
    This category includes findings that were identified in the areas of computer controls and/or property
    controls.
5
    Because there were only two direct findings identified in this category, it is not identified in this report for
    resolution.
6
    The single audit did not report any findings.
7
    The single audit reported findings, but they did not have the potential to affect the Disability
    Determination Services.

Summary of Single Audit Oversight Activities (A-07-02-32035)                                                                                                                                                             A-1
                                                                                                1                                                                                                2
                                                        Direct Findings                                                                     Crosscutting Findings




                                                                                                                                                             Property Management4
                                                                    Property Management4
                                   Cash Management




                                                                                                                          Cash Management
                        State
                        Fiscal




                                                                    Equipment/Real




                                                                                                                                                             Equipment/Real
                                                                                                        Allowable Costs




                                                                                                                                                                                                     Allowable Costs
           State




                                                                                                                                              Procurement3
                                                     Procurement3
                         Year




                                                                                           Reporting5




                                                                                                                                                                                    Reporting5
 Maine                 1999/2000                                                                                            X                                                         X                X
 Maryland              1999/2000                                                                                            X                                      X                  X
 Massachusetts         1999/2000                                                                                            X                    X                                    X                X
 Michigan              1999/2000                                                             X            X                                                                                            X
 Minnesota             1999/2000                                          X                                                                                        X                                   X
 Mississippi           1999/2000                                                                          X                 X                                      X                                   X
 Missouri              1999/2000                                                                                                                                                                       X
 Montana               1998/1999                                                                          X                 X                                      X                  X                X
 Nebraska              1999/2000                                                                                                                                                                       X
         7
 Nevada                1999/2000
 New Hampshire         1999/2000                                                                                            X                    X                                                     X
 New Jersey            1999/2000                                                                                                                 X
 New Mexico            1999/2000                                          X                               X                                                                                            X
 New York              1999/2000                        X                                                 X                                                                           X                X
 North Carolina        1999/2000                                                                                            X                    X                 X                  X                X
 North Dakota          1999/2000                                                                                                                                                      X                X
 Ohio                  1999/2000                                                                                            X                    X                 X                  X                X
 Oklahoma              1999/2000     X                                    X                                                                                                                            X
 Oregon                1999/2000                                                                                                                                                                       X
 Pennsylvania          1999/2000                                                                                                                 X                 X                  X

 Puerto Rico          1997/1998/     X                                    X                               X                 X                    X                 X                  X                X
                         1999
 Rhode Island         1999/2000      X                                    X                               X                                      X                 X                  X                X
 South Carolina        1999/2000                                                                                                                                                      X                X
 South Dakota          1999/2000                                                                                                                                                      X                X
 Tennessee             1999/2000                                                                                                                                   X                                   X
 Texas                 1999/2000                                                                                            X
 Utah                  1999/2000                                                                                            X                    X                                                     X
 Vermont               1999/2000                                                                                                                                   X                  X                X
 Virginia              1999/2000                                                                                                                                   X                                   X
 Washington            1999/2000                                                                                                                                                      X                X
 West Virginia         1999/2000                                                                          X                                                                                            X
 Wisconsin             1999/2000                                                                          X                                                        X                                   X
             7
 Wyoming               1999/2000

Note: See page A-1 for explanation of footnotes 1 through 7.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                                                                                                                                       A-2
                                                                                    Appendix B
Direct Findings Reported in 25 Single Audits
                                                                                     QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                       COSTS

  Alabama     1. The parent agency for the Alabama Disability Determination                   $0
    1999         Services (DDS), the Department of Education (DoE), had not
                 developed a formal contingency plan to be followed in the
                 event of a disaster that adversely affects the operations of its
                 in-house data processing center.

              2. The DoE did not draw funds in accordance with the funding                    $0
                 techniques specified in the Cash Management Improvement
                 Act (CMIA) agreement.

              3. The dates posted in DoE's accounting system, and used to                     $0
                 compute interest liabilities, were incorrect.

              4. The DoE did not have certifications to document that                         $0
                 employees worked solely on the Social Security
                 Administration's (SSA) disability programs, as required by
                 Office of Management and Budget (OMB) Circular A-87.


  Alabama     1. The DoE had informal policies and procedures for systems                     $0
    2000         development and maintenance and did not provide
                 appropriate segregation of duties among data processing
                 personnel.

              2. The DoE did not have adequate internal control policies and                  $0
                 procedures for preventing unauthorized systems access by
                 users and data processing personnel.

              3. The DoE did not communicate the contingency plan to be                       $0
                 followed in the event of a disaster that adversely affects
                 operations to personnel responsible for execution of the plan
                 and did not adequately update and test the plan.


   Arizona    1. The cost allocation plan for the parent agency of the Arizona                $0
    1999         DDS, the Department of Economic Security (DES), did not
                 include all equipment purchases in the allocation base. As a
                 result, costs were not properly allocated to Federal programs.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                  B-1
                                                                                     QUESTIONED
  STATE                             DIRECT FINDINGS
                                                                                       COSTS

  Colorado     1. The parent agency for the Colorado DDS, the Department of                    $0
   2000           Human Services (DHS), did not make timely payments to
                  providers who perform medical examinations of disability
                  claimants. Fifty-three percent of payments tested were made
                  45 or more days after DDS staff received the invoice.

               2. The DHS did not draw funds in accordance with terms of the                   $0
                  CMIA agreement.

               3. The CMIA agreement included programs that were not                           $0
                  required and omitted programs that were required.


   Florida     1. Salary costs for a DDS employee who performed non-SSA                    $22,607
    2000          work were inappropriately charged to SSA.

               2. Payments for accumulated leave of terminated or retired                 $151,005
                  employees were inappropriately charged to SSA. The
                  payments should have been allocated as an administrative
                  expense to all activities of the DDS' parent agency, the
                  Department of Labor and Economic Security.


   Georgia     1. The parent agency for the Georgia DDS, the DHS, did not                      $0
    2000          follow established guidelines for maintaining equipment
                  inventory.


    Illinois   1. The Illinois DDS did not have an approved Memorandum of                  $90,000
     1999         Understanding with SSA outlining the specifics of its non-
                  SSA work. Furthermore, the DDS did not have a
                  methodology for allocating costs of the non-SSA work
                  between the State and Federal program.

               2. The Illinois DDS did not submit the State Agency Report of                   $0
                  Obligations, Time Report of Personnel Services, Monthly
                  Obligation Report, and Cost-Effective Measurement System
                  reports to SSA in the required time frames.

               3. The parent agency for the Illinois DDS, the DHS, understated             $12,994
                  the CMIA interest liabilities due to the Federal Government.



    Illinois   1. DHS did not have a certification process in place to verify that             $0
     2000         DDS employees worked solely on SSA’s disability programs
                  as required by OMB Circular A-87.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                   B-2
                                                                                  QUESTIONED
  STATE                             DIRECT FINDINGS
                                                                                    COSTS

  Kentucky     1. The Kentucky DDS did not have formalized policies and                    $0
    1999          procedures in place to control its Wang system program
                  modifications. Specifically, a lack of segregation of duties
                  existed between the DDS’ systems support and program
                  control personnel.


  Michigan     1. On the Schedule of Expenditures of Federal Awards, the                   $0
   2000           Michigan DDS’ parent agency, the Family Independence
                  Agency, did not list the Disability Insurance (DI) program,
                  Catalog of Federal Domestic Assistance number 96.001, as
                  an individual grant of the DI/Supplemental Security Income
                  cluster and did not report the correct Federal assistance
                  program title for the DI program.

               2. The DDS did not have certifications to document that 4 of             $9,186
                  13 sampled employees worked solely on SSA’s disability
                  programs.


  Minnesota    1. Some employees at the DES, the parent agency for the                     $0
    2000          Minnesota DDS, had inappropriate access to mainframe
                  data.

               2. DES did not properly maintain its security infrastructure.               $0


 Mississippi   1. Personnel costs of DDS employees who performed non-SSA                   $0
    1999          work were inappropriately charged to SSA.

               2. The parent agency for the Mississippi DDS, the Department                $0
                  of Rehabilitation Services (DRS), did not have a system in
                  place to adequately document the personnel costs charged
                  to Federal programs.


  Montana      1. The parent agency for the Montana DDS, the Department of                 $0
   1999           Public Health and Human Services’ (DPHHS), did not have a
                  financial management control structure adequate to prevent
                  or detect all errors. Therefore, DPHHS could not ensure
                  payments were made for allowable purposes. Specifically,
                  DPHHS’ inefficient transaction processing did not accurately
                  support Federal reporting, demonstrate accurate allocation of
                  costs between State and Federal programs, and prevent
                  discrepancies from existing between the State’s primary
                  accounting system and DPHHS’ subsystems.




Summary of Single Audit Oversight Activities (A-07-02-32035)                               B-3
                                                                                QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                  COSTS

 New Mexico   1. The new accounting system for the New Mexico DDS was                     $0
   1999          not properly designed to allow reconciliation of DDS
                 encumbrances and related expenditures.

              2. A disaster recovery plan had not been designed or tested for             $0
                 the new accounting system at the DoE, the New Mexico
                 DDS' parent agency.


 New Mexico   1. The accounting system for the New Mexico DDS did not                     $0
   2000          allow reconciliation of DDS encumbrances and related
                 expenditures with the States’ accounting system.

              2. A disaster recovery plan had not been designed or tested for             $0
                 the new accounting system at DoE, the New Mexico DDS'
                 parent agency.


  New York    1. The parent agency for the New York DDS, the Department of                $0
    1999         Social Services (DSS), did not follow cost allocation
                 methodology procedures set forth in OMB Circular A-87.

              2. DSS charged costs for non-SSA, work-related activities to           $475,785
                 SSA.

              3. DSS did not charge $1,700 in parking costs to various                    $0
                 Federal programs in accordance with OMB Circular A-87. As
                 a result, SSA may have been charged parking costs that did
                 not benefit its programs.

              4. DSS did not have procedures to identify and exclude from its             $0
                 procurement process those subcontractors and subrecipients
                 barred from participation in Federal programs.

              5. DSS incorrectly recorded $158,201 in employee salaries in                $0
                 the State’s payroll system because of errors in employee
                 timesheets. As a result, SSA may have been charged salary
                 costs that did not benefit its programs.


  New York    1. DSS incorrectly recorded salaries in the State’s payroll              $4,263
    2000         system because of errors in employee timesheets.

              2. DSS did not follow cost allocation procedures set forth in               $0
                 OMB Circular A-87.

              3. DSS did not properly authorize expenditures and did not                  $0
                 maintain supporting documentation.

              4. DSS incorrectly charged SSA costs of $760,211 to non-SSA                 $0
                 programs.




Summary of Single Audit Oversight Activities (A-07-02-32035)                              B-4
                                                                                   QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                     COSTS

  Oklahoma     1. The parent agency for the Oklahoma DDS, the DRS, did not                   $0
    2000          have a disaster recovery plan to be followed in the event of a
                  disaster that adversely affects the Department's operations.

               2. DRS did not have procedures in place to ensure that only                   $0
                  authorized personnel had appropriate access to mainframe
                  data. In addition, the computer room did not have a fire
                  suppression system.

               3. DRS did not draw funds in accordance with the terms of the                 $0
                  CMIA agreement.


 Puerto Rico   1. The parent agency for the Puerto Rico DDS, the Department                $725
    1997          of the Family (DoF), paid an employee above the authorized
                  salary. The auditors estimated that questioned costs for
                  improper salary payments could be in excess of $10,000.

               2. DoF requested a cash draw without documentation showing               $939,771
                  the cash was needed to pay expenditures.

               3. DoF did not reconcile physical inventory results with the                  $0
                  accounting records, or maintain accurate records for
                  acquisitions and dispositions of property acquired with SSA
                  funds.

               4. DoF did not maintain supporting documentation for                     $753,217
                  expenditures.


 Puerto Rico   1. DoF did not reconcile physical inventory results with the                  $0
    1998          accounting records, or maintain accurate records for
                  acquisitions and dispositions of property acquired with SSA
                  funds.

               2. DoF did not provide documentation to support expenditure                   $0
                  amounts to test the base used for indirect costs.

               3. DoF did not maintain supporting documentation for                     $170,768
                  expenditures.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                 B-5
                                                                                 QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                   COSTS

 Puerto Rico   1. DoF claimed expenditures on the Financial Status Report             $899,764
    1999          that were greater than amounts recorded in the general
                  ledger.

               2. DoF did not maintain supporting documentation for                  $4,214,001
                  expenditures.

               3. DoF did not perform fiscal evaluations to ensure that               $172,354
                  disbursements were allowable.

               4. DoF did not provide documentation to support expenditure                  $0
                  amounts to test the base used for indirect costs.


   Rhode       1. The parent agency for the Rhode Island DDS, the DHS, did                  $0
   Island         not have a statewide inventory system and related controls
    1999          for its fixed assets.

               2. Federal cash draws made by DHS were not in accordance                     $0
                  with the terms of the State’s CMIA agreement.


   Rhode       1. DHS allocated central service costs to various Federal                    $0
   Island         programs, including SSA’s disability programs, based on an
    2000          estimated amount. Once actual amounts were available,
                  DHS adjusted current year charges to account for the
                  overcharge in previous fiscal years.

               2. DHS did not draw funds in accordance with the CMIA                        $0
                  agreement.

               3. DHS did not have a statewide inventory system and                         $0
                  procedures were not in place to ensure compliance regarding
                  the use, management and disposition of equipment.


    West       1. The parent agency for the West Virginia DDS, the DRS, did          $1,552,922
   Virginia       not properly apply or code indirect costs to the disability
    2000          program.


  Wisconsin    1. SSA might have reimbursed the parent agency for the                       $0
    2000          Wisconsin DDS, the Division of Vocational Rehabilitation
                  (DVR), for client rehabilitation services based on incorrect
                  administrative costs. The auditors could not determine how
                  SSA’s reimbursement amount was calculated because DVR
                  did not retain the supporting documentation.


                                                    Total Questioned Costs         $9,469,362




Summary of Single Audit Oversight Activities (A-07-02-32035)                                B-6
                                                                                       Appendix C
Crosscutting Findings Reported
in 89 Single Audits
                                                                                        QUESTIONED
      STATE                        CROSSCUTTING FINDINGS
                                                                                          COSTS1

      Alabama          1. There was no formal, written contingency plan for                             $0
     1999/2000            policies and procedures to be followed in the event of a
                          disaster that adversely affects the operations of the data
                          center.

                       2. Security software purchased had not been utilized,                            $0
                          resulting in data processing systems not being protected
                          from unauthorized access.


       Alaska          1. The payroll system did not have controls in place to                          $0
     1999/2000            meet financial reporting guidelines.

                       2. Indirect costs were charged without an approved indirect                      $0
                          cost allocation plan (State Fiscal Year (SFY) 1999).

                       3. The indirect cost allocation plan had inadequate                              $0
                          documentation of its allocations to Federal programs
                          (SFY 2000).

                       4. Personal services expenditures were not charged to                            $0
                          Federal programs in compliance with Office of
                          Management and Budget (OMB) Circular A-87.


      Arizona          1. Internal controls were not in place to ensure overall                         $0
     1999/2000            efficiency and effectiveness, compliance with laws and
                          regulations, and reliable and accurate financial
                          reporting.

                       2. Errors were noted in the Random Moment Sample used                            $0
                          to allocate payroll charges to Federal programs, which
                          resulted in some programs being overcharged while
                          others were undercharged.

                       3. There was no formal contingency plan in the event of a                        $0
                          disaster that could adversely affect daily operations.




1
 These amounts were reported in the single audit reports as questioned costs for various Federal
programs. They were not specifically identified to the Social Security Administration’s disability programs.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                            C-1
                                                                                      QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                        COSTS1

    California       1. Quarterly financial status reports were not reconciled to             $0
    1999/2000           the accounting records.

                     2. Documentation of transactions to agencies regarding                   $0
                        the CMIA agreement was inadequate, and the interest
                        liability due to the Federal Government could not be
                        determined.

                     3. Limitations in the automated accounting systems did not               $0
                        allow for expenditures to be reported by program on the
                        SEFA.

                     4. The time between the receipt and disbursement of                      $0
                        Federal funds was not minimized.


     Colorado        1. Revenue information was not reconciled and an                         $0
    1999/2000           automated system was not in place to track charges and
                        resulting revenue and receipts.

                     2. Manual adjustments for payroll transactions were                      $0
                        incorrectly performed.

                     3. The automated timekeeping system incorrectly
                        classified hours worked by employees, resulting in                    $0
                        employees being overpaid. In addition, payroll
                        information from departmental sources was not
                        reconciled with information from the State’s payroll
                        system.

                     4. Employee time sheets did not contain documentation of                 $0
                        supervisory approval.

                     5. Internal controls over the use of credit cards were weak.             $0
                        In addition, procedures for reviewing the purchase card
                        function were not documented, and transaction account
                        coding was not reviewed.


    Connecticut      1. All contractors were not required to certify that they were           $0
    1999/2000           not suspended or debarred.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                  C-2
                                                                                     QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                       COSTS1

    Connecticut      2. Methodologies for random samples may not have been                   $0
     1999/2000          accurate resulting in costs being distributed to various
    (Continued)         programs at incorrect rates.

                     3. The cost allocation system showed that expenditures                  $0
                        were charged to the wrong program.

                     4. Salaries were charged 100 percent to a Federal                       $0
                        program when time was not devoted to the program.

                     5. Automated Data Processing system security reviews                    $0
                        were not performed for the installations that were
                        involved in administering programs.

                     6. Federal funds were advanced before actually needed.                  $0

                     7. Contracts did not identify the Federal program title.                $0


    Delaware         1. The CMIA agreement was not followed, and the proper                  $0
    1999/2000           funding technique was not used when requesting
                        Federal funds.

                     2. Inaccurate interest liability amounts were reported in the           $0
                        Annual Report required by the CMIA agreement.


     District of     1. Federal draws were not accurately recorded in financial              $0
     Columbia           systems.
       1999


      Florida        1. Terms of the CMIA agreement concerning Federal                       $0
    1999/2000           draws and interest calculations were not followed.

                     2. Personnel costs were not properly allocated.                         $0

                     3. Cost were not allocated among computer users n the                   $0
                        most equitable manner according to OMB Circular A-87.

                     4. Reconciliation worksheets associated with central                    $0
                        service costs were improperly prepared, and costs
                        subject to allocation were overstated by $12,029,469 in
                        the statewide cost allocation plan.

                     5. The statewide cost allocation plan was not submitted                 $0
                        timely for Federal approval.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                 C-3
                                                                                 QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                   COSTS1

     Georgia         1. Equipment inventories were not properly maintained.                $0
    1999/2000
                     2. Accounting data reconciliations were not consistently              $0
                        performed, and controls were not in place to safeguard
                        data against unauthorized access.


      Guam           1. Internal controls over recordkeeping needed to be                  $0
    1999/2000           improved.

                     2. Copies of financial reports were not found.                        $0

                     3. Procedures were not followed to ensure that Federal                $0
                        reports were prepared and submitted timely.

                     4. Controls were not in place to ensure that funds were          $125,516
                        obligated during the period of availability.

                     5. A physical inventory of equipment was not conducted,               $0
                        and maintenance procedures designed to keep
                        equipment in good condition were not established.

                     6. Controls were not in place to ensure that procurements      $6,397,029
                        were documented in sufficient detail.

                     7. Supporting documentation for invoices, purchase                $38,380
                        orders, and check copies were not retained for the
                        required period of time.

                     8. Payments were recorded twice as expenditures under             $88,287
                        the same account numbers.

                     9. Controls were not maintained over the time elapsed                 $0
                        between the transfer of Federal funds.

                     10. The Department had not prepared financial statements.      $7,146,869




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                               C-4
                                                                                     QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                       COSTS1

      Hawaii         1. Leave records were not maintained on a timely basis,                  $0
    1999/2000           and there was a lack of adequate review procedures to
                        ensure that information was accurate and complete.

                     2. The Automated Recovery System used to account for                     $0
                        overpayments was outdated resulting in inaccurate and
                        untimely reporting.

                     3. Inventory records were not reported quarterly.                        $0

                     4. Required automated data processing reviews were not                   $0
                        performed due to a lack of personnel resources.


      Idaho          1. Cash draws were not made timely resulting in interest             $13,000
    1999/2000           liabilities that may be owed the Federal Government.

                     2. Costs allocated to Federal grants were not always                     $0
                        based on actual time spent on the program.


       Illinois      1. Controls were inadequate to maintain supporting                       $0
        1999            documentation for receipts and make deposits in a
                        timely manner.

                     2. A centralized system for accumulating and reporting                   $0
                        lease costs, maintenance costs, minimum mileage
                        requirements, and personal vehicle assignments for
                        vehicles maintained at the central office were not
                        established.

                     3. Formal tests of the disaster recovery plan to be used in              $0
                        the event of a disaster that could adversely affect daily
                        operations were not conducted. In addition, recovery
                        procedures for minicomputers and local area network
                        environments were not formally documented.

                     4. Receipt account balances were not reconciled with the                 $0
                        State Comptroller records timely. In addition, there was
                        little or no documentation to support the reconciliations.




 Note: See page C-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                  C-5
                                                                                  QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                    COSTS1

      Illinois       5. Procedures to track or account for internal computer              $0
       1999             parts shipped from the warehouse to various locations
    (Continued)         were not completely followed.

                     6. Proper safeguards over property and equipment to                  $0
                        prevent unauthorized access or theft were not
                        maintained.

                     7. All required Electronic Data Processing (EDP)                     $0
                        equipment information was not included on the
                        Equipment Inventory System (EIS). In addition, unused
                        or obsolete EDP equipment was not updated on the
                        EIS.

                     8. Computer equipment purchases costing over                         $0
                        $2,062,000 were held for over 1 year without being
                        installed or placed in service.

                     9. Reviews of telecommunications invoices and phone                  $0
                        calls made by employees were not documented.


      Iowa           1. An up-to-date and accurate inventory of all property              $0
    1999/2000           items was not maintained.


     Kansas          1. Financial statements did not include certain assets and           $0
    1999/2000           liabilities, and the State's accounting systems and
                        processes did not capture and document information
                        relating to these assets and liabilities.

                     2. Inter-agency transactions were recorded inconsistently            $0
                        resulting in expenditures being recorded twice.


     Kentucky        1. Policies and procedures for maintaining supporting                $0
    1999/2000           documentation for expenditures were not in place.

                     2. Financial reports and accounting records contained                $0
                        inaccurate and incomplete documentation.

                     3. Financial statements could not be verified because                $0
                        documentation was not retained.

                     4. Automatic log-off security for the Automated Purchasing           $0
                        System was not implemented.

                     5. The SEFA was not complete and/or was inaccurate.                  $0


 Note: See page C-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-02-32035)                              C-6
                                                                                      QUESTIONED
     STATE                        CROSSCUTTING FINDINGS
                                                                                        COSTS1

      Kentucky       6. Improper duplicate payments for purchase orders were               $74,185
     1999/2000          made because prior expenditure documents were
    (Continued)         incorrect or incomplete.

                     7. The financial system did not accurately reflect                        $0
                        adjustments made to financial transactions.

                     8. There were no mechanisms in place to ensure timely                     $0
                        submissions of equipment conversions and there were
                        no procedures for implementing a statewide physical
                        inventory system.

                     9. Procedures were not in place to comply with the CMIA                   $0
                        agreement.

                     10. Supporting documentation was not maintained to                        $0
                         reconcile financial transactions.

                     11. Controls were not in place to ensure security over                    $0
                         Personal Identification Numbers.

                     12. A system was not in place to identify specific                        $0
                         expenditure types.


    Louisiana        1. Effective internal audit functions to examine, evaluate                $0
    1999/2000           and report on the internal controls, including data
                        processing, were lacking.

                     2. Adequate internal controls were not maintained or did                  $0
                        not consistently adher to established procedures
                        regarding federally funded programs.

                     3. CMIA agreement was not followed, and clearance                         $0
                        patterns were not completely developed.

                     4. Internal controls had not been established over vendor                 $0
                        reimbursements processed through the payment system
                        to ensure assets were safeguarded.

                     5. Accounting controls were inadequate over movable                       $0
                        property acquisition, disposition, valuation, and location.

                     6. An adequate monitoring system was not in place to                      $0
                        ensure contractors' were audited.

                     7. Refunds of Federal expenditures were not applied to                $48,226
                        subsequent requests for Federal funds, as required by
                        the CMIA agreement.


 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                   C-7
                                                                                      QUESTIONED
     STATE                        CROSSCUTTING FINDINGS
                                                                                        COSTS1

      Maine          1. Policies were not in place to ensure timely bank                        $0
    1999/2000           reconciliations were peformed.

                     2. Controls were not in place to ensure accurate reporting            $963,687
                        of Federal grant expenditures, resulting in costs being
                        charged twice, and cost allocation plan errors were not
                        detected.

                     3. Payroll and other costs were charged to the wrong                  $415,757
                        program.

                     4. Information was not retained to support fixed assets                    $0
                        reported on the Federal financial report. Transactions
                        were not identified, classified and reported.

                     5. Procedures were not in place to consistently identify,                  $0
                        value, and record amounts owed.

                     6. Controls were not in place to ensure compliance with                    $0
                        the CMIA agreement.

                     7. Disbursements reported on the quarterly Federal cash                    $0
                        transaction report were not supported.

                     8. Procedures to ensure compliance with monitoring                         $0
                        requirements were not in place.

                     9. Procedures were not in place to ensure that the correct                 $0
                        Catalog of Federal Assistance numbers were used.

                     10. Personnel costs were not properly distributed for                      $0
                         employees who worked on multiple activities or cost
                         objectives, and periodic certifications were not prepared.

                     11. Controls over payroll records were not effective to                    $0
                         ensure compliance with OMB requirements.


     Maryland        1. Equipment purchases were not recorded nor the                           $0
    1999/2000           purchasing department notified before receipt.

                     2. Quarterly reports contained inaccurate or missing                       $0
                        information regarding surplus personal property.

                     3. Expenditure amounts were not reconciled with amounts                    $0
                        reported on the SEFA.

                     4. Cash draws were untimely resulting in interest liabilities.             $0




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                    C-8
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

  Massachusetts      1. Procedures were not in place to review vendor master               $$
   1999/2000            files to identify vendors that should be deleted.

                     2. Lease accounting procedures were not monitored.                    $0

                     3. The cash management system was inadequate to                       $0
                        reconcile financial transactions.

                     4. The method of accounting and reporting certain types of            $0
                        funds hampered the efficiency of the accounting and
                        financial reporting process.

                     5. Distribution of personal service costs to Federal                  $0
                        programs did not comply with Federal requirements.
                        Periodic certifications stating that an employee worked
                        solely on a program were not maintained.

                     6. The system used to allocate payments received on                   $0
                        accounts did not properly record the payments.


     Michigan        1. The personnel and payroll information system did not               $0
      2000              maintain the required internal controls for entering and
                        reconciling payroll and personnel information.

                     2. Internal control procedures for preparing time and                 $0
                        attendance records were not followed, and internal
                        controls were not maintained over the processing of
                        personnel and payroll transactions.


    Minnesota        1. Adequate oversight was not provided to vendors, and                $0
    1999/2000           questions on allowable use of funds in some Federal
                        programs were not resolved.

                     2. Accounts receivable balances and other financial                   $0
                        transactions were not reconciled with various accounts,
                        and the State's accounting system contained inaccurate
                        object codes.

                     3. Procedures were not in place to monitor manual checks.             $0

                     4. Computer controls were not in place concerning                     $0
                        employee access, accounts, and passwords.

                     5. The Department of Finance did not provide adequate                 $0
                        direction to State agencies for financial transactions.

                     6. Independent quality control reviews of system batch                $0
                        jobs were not conducted.

 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                               C-9
                                                                                  QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                    COSTS1

    Mississippi      1. The Cost Allocation Plan charged costs that were not               $0
    1999/2000           approved before they were charged.

                     2. A completed Disaster Recovery Plan was not                         $0
                        implemented.

                     3. Adequate controls over cash management were not                    $0
                        maintained.

                     4. Information Technology Services did not contain an                 $0
                        adequate power supply, and control weaknesses in the
                        employee termination procedures were noted.


      Missouri       1. Controls for the new State accounting system were                  $0
       2000             inadequate.


     Montana         1. The Information Services Division did not properly bill            $0
      1999              and collect service costs from benefiting departments.

                     2. Reviews and analysis of data processing and system                 $0
                        security issues were not performed.

                     3. Federal reports were not properly supported, accurately            $0
                        prepared, or submitted promptly.

                     4. Funds were not drawn in accordance with the terms of               $0
                        the CMIA agreement.

                     5. The Agency Wide Accounting and Client System used                  $0
                        to generate vendor and provider payments was not
                        reconciled to the primary accounting system.


    Nebraska         1. Documents were not coded to the proper grant.                   $6,566
    1999/2000
                     2. Procedures were not followed for posting adjustments               $0
                        timely.


  New Hampshire      1. Clearance patterns were not reviewed.                              $0
    1999/2000
                     2. Contracts did not contain required language regarding              $0
                        debarment and suspension.

                     3. Vouchers were paid without proper authorization.                $8,427

                     4. Salaries allocated to Federal programs were not                 $5,932
                        supported by an effort-reporting system.

 Note: See page C-1 for footnote explanation.


Summary of Single Audit Oversight Activities (A-07-02-32035)                              C-10
                                                                                    QUESTIONED
     STATE                        CROSSCUTTING FINDINGS
                                                                                      COSTS1

    New Jersey       1. Procedures were not established to oversee the                       $0
      2000              processing of contracts for the required certification.


    New Mexico       1. Application of consistent internal control procedures                $0
     1999/2000          failed as a result of continued vacancies, lack of
                        experienced accounting personnel, and the decrease in
                        authorized positions in the Finance department.


    New York         1. Claims were not submitted timely for Federal                         $0
    1999/2000           reimbursement.

                     2. Quarterly financial status reports were not reconciled to            $0
                        State accounting records.

                     3. Presettlement reviews for allowability of claims were not            $0
                        conducted.

                     4. Reviews were not performed to assess or verify the                   $0
                        allowability of claims charged to Federal programs from
                        other State agencies.

                     5. Supporting documentation and records were not                        $0
                        maintained for transactions with outside vendors.


   North Carolina    1. Employees had more access to the accounting system                   $0
    1999/2000           than necessary for their jobs.

                     2. Controls were not in place to ensure that grant draws                $0
                        were made in accordance with the CMIA agreement.

                     3. Financial statements were not filed timely.                          $0

                     4. Federal transactions were not reconciled to the general          $60,000
                        ledger.

                     5. Controls over fixed assets needed improvements, and                  $0
                        an annual physical inventory had not been performed.

                     6. Prescribed procedures were not followed when                         $0
                        processing cash disbursements.

                     7. Controls were not in place to ensure payments were                   $0
                        based on authorized rates of disbursement.



 Note: See page C-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                C-11
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

   North Carolina    8. The method for compiling claims and benefits payable            $922,000
     1999/2000          transactions were deficient.
    (Continued)
                     9. Financial reports were inaccurate.                                   $0

                     10. Prescribed procedures were not followed for                      $8,451
                         procurement, and required competitive bids were not
                         obtained.

                     11. Contract approval was not obtained before receiving                 $0
                         services.

                     12. Invoices were not processed timely.                                 $0


   North Dakota      1. Controls were not in place to ensure reports were                    $0
       2000             complete, accurate, and properly approved.

                     2. Adequate time records for individuals who worked on                  $0
                        multiple cost activities were not kept.

                     3. Payroll costs charged were not properly supported, and               $0
                        the required certification stating that employees worked
                        solely on a certain program was not completed.


      Ohio           1. There were no written procedures to track the computer               $0
    1999/2000           program change request process.

                     2. Suspension and debarment certifications were not                     $0
                        obtained.

                     3. Federal funds were drawn in error.                              $747,972

                     4. Amounts reported in the payment system were different           $106,189
                        than amounts reported in the Central Accounting
                        System.

                     5. Supporting documentation for completed reports was                   $0
                        not maintained.

                     6. The Department did not adequately monitor or perform                 $0
                        reviews for program compliance.

                     7. Obligations were not liquidated within the established          $151,164
                        time limits.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                C-12
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

    Oklahoma         1. Written accounting procedures and cost allocation plans              $0
    1999/2000           were not in place.

                     2. A system was not in place to adequately document                     $0
                        personnel costs charged to Federal programs.

                     3. The method to allocate direct and indirect costs was not             $0
                        approved.


     Oregon          1. Controls were not in place to ensure files were properly             $0
    1999/2000           documented, reviewed, and retained.

                     2. Internal controls over check stock were not adequate.                $0

                     3. Unresolved items were not reconciled timely.                         $0


   Pennsylvania      1. Procedures were not in place regarding the                           $0
    1999/2000           methodology, documentation, preparation, review and
                        submission of reports.

                     2. Procedures were not in place to ensure signed                        $0
                        certifications regarding debarment and suspension were
                        documented.

                     3. Controls related to logical access, physical access,                 $0
                        physical environment, systems development, program
                        changes, and segregation of duties were not adequate.

                     4. Methodologies and procedures for accruing and                        $0
                        reporting financial activity were not in place.

                     5. Documentation was not adequate to support the proper                 $0
                        procurement of a telecommunications contract.


    Puerto Rico      1. Procedures over disbursements were not adequate.                     $0
    1997/1998/
       1999          2. Federal funds were disbursed to a suspended party               $42,578
                        because there were no procedures preventing such
                        disbursements.

                     3. Procedures were not in place to ensure single audits                 $0
                        and financial reports were completed and submitted
                        timely.

                     4. Bidding procedures were not followed, funds were              $7,552,548
                        disbursed without a signed contract, and documentation
                        was not maintained to support expenditures.

 Note: See page C-1 for footnote explanation.


Summary of Single Audit Oversight Activities (A-07-02-32035)                                C-13
                                                                                      QUESTIONED
     STATE                        CROSSCUTTING FINDINGS
                                                                                        COSTS1

    Puerto Rico      5. Financial statements were not prepared in conformity                    $0
    1997/1998/          with generally accepted accounting principles because
       1999             of a lack of policies, procedures, and financial reporting
    (Continued)         practices. Therefore, fiscal and financial management
                        did not have accurate, effective, and complete financial
                        information on a timely basis to carry out other duties.

                     6. A detailed report of year-end obligations was not                $2,700,019
                        prepared to determine whether funds were properly
                        obligated, resulting in potentially unallowable
                        obligations. In addition, there was not an adequate
                        filing system to allow the efficient retrieval of
                        documentation supporting prior-period payments.

                     7. Property and equipment management procedures were                  $793,439
                        not adequate.

                     8. The indirect cost plan was not available to the auditors                $0
                        for their review.

                     9. Federal funds were not drawn in accordance with the              $4,362,699
                        terms of the CMIA agreement.

                     10. Expenditures were charged to the wrong program.                    $90,637

                     11. A Corrective Action Plan to address findings identified in             $0
                         the prior year single audit was not prepared.

                     12. Documentation was not maintained to support indirect            $3,334,758
                         cost charges, and the wrong indirect cost rate was used.

                     13. Current year funds were used to pay prior year                     $39,651
                         expenditures.

                     14. Transactions were not reviewed to ensure payments                      $0
                         agreed with invoice amounts.

                     15. Interest liabilities that may be owed to the Federal                   $0
                         Government were not calculated and reported.

                     16. The Financial Status Report did not agree with the                     $0
                         general ledger.

                     17. Federal funds were expended for unallowable costs.                 $12,500

                     18. Reviews were not performed to ensure funds were                    $81,318
                         expended for allowable activities.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                   C-14
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

    Puerto Rico      19. Property and equipment management procedures were                  $0
    1997/1998/           not adequate. Expenditures were not adequately
       1999              supported before expending Federal funds.
    (Continued)
                     20. Supporting documentation and accounting records were               $0
                         not retained for expenditures.

                     21. Evidence to support the draw of Federal funds could not            $0
                         be located.

                     22. Payroll disbursements were not properly recorded.                  $0


   Rhode Island      1. Controls were not in place to ensure that contractors               $0
    1999/2000           had certifications and were not suspended or debarred.

                     2. Controls over inventory records used to identify                    $0
                        equipment purchases were not adequate, nor were
                        there procedures in place regarding the use,
                        management, and disposition of all equipment.

                     3. Unique passwords for computer access were not                       $0
                        required.

                     4. Controls for user access for the State accounting                   $0
                        system were inadequate.

                     5. The accounting system did not capture all categories of             $0
                        long-term obligations.

                     6. Checks outstanding more than 180 days were not                  $32,801
                        credited to the Federal Government.

                     7. Computer controls were not in place to ensure security              $0
                        in the use, management, and disposition of equipment.

                     8. Expenditures were not claimed within the period of              $20,369
                        availability.

                     9. Expenditures on the Federal Cash Transaction Reports                $0
                        were not consistent with amounts reported on quarterly
                        Federal expenditure reports for each program.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                               C-15
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

  South Carolina     1. Written policies were not in place to maintain and store            $0
   1999/2000            data that support the allocation of costs to various
                        programs.

                     2. Adjusting journal entries were not prepared timely.                 $0

                     3. Procedures were not in place to ensure that quarterly           $63,990
                        cost allocation updates were input and reviewed.

                     4. Financial reports did not agree with amounts reported in            $0
                        the general ledger.


   South Dakota      1. Controls did not exist to ensure the accurate payment of            $0
    1999/2000           administrative fees due to service providers.

                     2. The annual report contained data that were inaccurate               $0
                        or were not supported.


    Tennessee        1. Documentation to support access to the on-line                      $0
    1999/2000           purchasing system was not on file.

                     2. Proper controls over the purchasing system to ensure                $0
                        that design changes were implemented and followed
                        were not in place.

                     3. Controls over the financial information data base need              $0
                        to be improved.

                     4. The accounting reporting system program changes were                $0
                        not properly documented and approved by
                        management.

                     5. A complete inventory was not completed to ensure                    $0
                        proper accounting for all equipment.

                     6. Written policies and procedures were not in place to                $0
                        ensure that serious administrative and programmatic
                        deficiencies did not occur.


       Texas         1. The CMIA agreement was not followed, and clearance                  $0
       1999             patterns were not completely developed.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                               C-16
                                                                                   QUESTIONED
     STATE                       CROSSCUTTING FINDINGS
                                                                                     COSTS1

      Utah           1. Required certifications that contractors were not                    $0
    1999/2000           suspended or debarred were not obtained.

                     2. Federal funds were advanced inappropriately.                    $147,158

                     3. Certification and supporting documentation for payroll               $0
                        related expenses were not maintained.

                     4. Terms of the CMIA agreement ensuring that Federal                    $0
                        draws are made timely were not followed.

                     5. Federal funds were not obligated within the period of                $0
                        availability.


     Vermont         1. Required reports were not filed timely.                              $0
    1999/2000
                     2. System security reviews were not conducted.                          $0

                     3. Expenses were not properly allocated when invoices                   $0
                        were sent out.

                     4. Procedures were not followed when transferring funds                 $0
                        according to Federal guidelines.


     Virginia        1. Financial information was not properly recorded into the             $0
    1999/2000           system.

                     2. User access was not monitored.                                       $0

                     3. Controls were not in place over inventory policies and               $0
                        procedures.

                     4. Account reconciliations were not made timely.                        $0

                     5. Accurate and complete information was not used in                    $0
                        financial accounting reports.

                     6. Documented procedures for the request, approval, and                 $0
                        development of systems modification requests were not
                        followed.


    Washington       1. Federal programs were charged for direct and indirect                $0
      2000              unallowable costs that either contained no
                        documentation to support them or because Federal
                        regulations did not allow them.




 Note: See page C-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-02-32035)                                C-17
                                                                                       QUESTIONED
      STATE                          CROSSCUTTING FINDINGS
                                                                                         COSTS1

    West Virginia       1. Reporting procedures were not sufficient to enable State              $0
     1999/2000             departments to identify, verify, and report escheated
                           warrants by grant to the Federal grantor. The Federal
                           programs should have been credited for the amount of
                           escheated warrants related to the Federal awards.


     Wisconsin          1. There was no Disaster Recovery Plan.                                  $0
       1999
                        2. There were no formal written procedures regarding                     $0
                           proper request, oversight, and review for program
                           changes.

                        3. Controls were not developed to limit programmers'                     $0
                           ability to access certain files and prevent programs from
                           being altered.

                        4. There were significant errors and inconsistencies in the              $0
                           financial information prepared by the Accounting
                           Section.

                        5. Procedures were not developed to ensure that complete                 $0
                           billing records were accurately entered into the billing
                           system.

                                                      Total Questioned Costs            $36,602,102




 Note: See page C-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                    C-18
                                                                                     Appendix D
Findings We Identified During the Same Time
Frame as the Single Audits Reviewed
                       OFFICE OF THE INSPECTOR GENERAL (OIG)                            QUESTIONED
    OIG AUDIT
                                      FINDINGS1                                           COSTS
  Audit of the
                    1. Fiscal Year (FY) 1999 rental expenses of $55,987 were
 Administrative                                                                                      $0
                       accounted for and reported as expenditures for FY 1998.
 Costs Claimed
                       (Disability Determination Services (DDS) reclassified
 by the Oregon
                       expense to FY 1999.)
    Disability
 Determination                                                                                  $27,544
                    2. Drawdowns exceeded reported disbursements for FY 1998
    Services
                       by $27,544.
(A-15-99-52021)

                    1. FY 1999 expenses of $121,965 were accounted for and                            $0
  Audit of the         reported as expenditures for FY 1998. (DDS reclassified
 Administrative        expense to FY 1999.)
 Costs Claimed                                                                                        $0
     by the         2. The Social Security Administration did not approve the office
  Connecticut          lease.                                                                         $0
    Disability
 Determination      3. There was no comprehensive business
    Services           continuity/contingency plan.
(A-15-00-30016)                                                                                       $0
                    4. Computer access controls were weak.

                    1. FY 1998 unliquidated obligations totaling $249,892 and                  $413,292
                       FY 1998 automated investment funds (AIF) totaling $163,400
  Audit of the         had not been reviewed and action taken to deobligate those
 Administrative        amounts no longer deemed valid.
 Costs Claimed
 by the Arizona     2. AIF accounting records were not always segregated from                  $249,560
 Department of         limitation on administrative expenses (LAE) accounting
   Economic            records, causing reporting inaccuracies. AIF costs totaling
 Security for its      $153,863 were inappropriately charged to the LAE funding.
    Disability         In addition, AIF expenditures totaling $95,697 were not
 Determination         captured from the accounting records.
    Services
 Administration     3. Inventory lists were not maintained.                                           $0
(A-15-99-51009)
                    4. A process to determine the reasonableness of medical fees                      $0
                       was not established.

                                                       Total Questioned Costs                $690,396




1
 Only the findings and questioned costs identified for the same period as the single audit are reported.
Summary of Single Audit Oversight Activities (A-07-02-32035)
                                                               Appendix E
Agency Comments




Summary of Single Audit Oversight Activities (A-07-02-32035)
                                         SOCIAL SECURITY


MEMORANDUM


Date:      September 16, 2002                                                    Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Management Advisory Report "Summary of Single
           Audit Oversight Activities," A-07-02-32035—INFORMATION


           We appreciate the OIG’s efforts in analyzing single audits for this review. Our comments on the
           draft management advisory report recommendations are attached.

           Staff questions may be referred to Janet Carbonara on extension 53568.

           Attachment




           Summary of Single Audit Oversight Activities (A-07-02-32035)                                E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “SUMMARY OF SINGLE AUDIT OVERSIGHT
ACTIVITIES” (A-07-02-32035)

Thank you for the opportunity to review this OIG draft Management Advisory Report. The first
five recommendations are from a prior single audit summary report (A-07-00-10032) and were
implemented in August 2001 (recommendation 3) and October 2001 (recommendations 1, 2, 4
and 5). Information about the actions taken is provided below, along with our response to
recommendation six.

Recommendation 1

SSA should provide instructions to the Disability Determination Services (DDS) to adhere to the
terms of the Cash Management Improvement Act (CMIA) agreement.

Comment

SSA issued a DDS Administrators Letter on October 4, 2001 reminding the States to adhere to
the terms of their CMIA agreements. Since the CMIA agreements are between the States and the
Department of the Treasury (DT), SSA has a limited role with respect to these agreements.
Therefore, we suggest that the OIG bring the results of its review on this matter to the attention
of the DT Inspector General for follow-up action by that agency.

Recommendation 2

SSA should provide instructions to the DDSs to implement controls to prevent unauthorized
computer access.

Comment

SSA issued a Regional Commissioners memorandum and a DDS Administrators Letter
regarding DDS security on October 4, 2001. This document provided comprehensive guidance
to the DDSs and regional offices regarding a number of security areas. Compliance with that
document is being monitored through annual DDS self-reviews, regional security audits and
PricewaterhouseCoopers security audits. In addition, the Agency has been working closely with
the DDSs to develop systems risk models for the AS/400 and WANG systems, as well as
installing monitoring software to check for compliance to critical systems setting. SSA will
continue its efforts to prevent unauthorized computer access.

Recommendation 3

SSA should provide instructions to the DDSs to develop a formal contingency plan to be
followed in the event of a disaster that adversely affects operations.

Comment

SSA issued a DDS Administrators Letter on August 6, 2001, transmitting the “Final DDS
Security Document” which covers developing a formal contingency plan to prevent disruption of
Summary of Single Audit Oversight Activities (A-07-02-32035)                                  E-2
services in the event of a disaster. SSA will continue to work with the DDSs to ensure
adherence.

Recommendation 4

SSA should provide instructions to the DDSs to maintain complete and accurate equipment
inventory records and perform periodic physical inventories.

Comment

SSA issued a DDS Administrators Letter on October 4, 2001 reminding the States to maintain
complete and accurate equipment inventory records and to perform periodic physical inventories.

Recommendation 5

SSA should provide instructions to the DDSs to ensure that costs charged to SSA benefit its
programs and are properly authorized and documented.

Comment

SSA issued a DDS Administrators Letter on October 4, 2001 reminding the States to ensure that
costs charged to SSA benefit its programs and are properly authorized and documented.

Recommendation 6

SSA should provide instructions to the DDSs to implement controls to ensure that non-SSA work
costs are properly accounted for and reported.

Comment

SSA has revised and updated the Program Operations Manual System (POMS) DI 39563.210f
and circulated it to all the regions for comments, which are currently being reviewed. The
POMS emphasizes that a Memorandum of Understanding (MOU) between SSA and the State is
necessary when the DDS will be processing non-SSA work. At a minimum the MOU must
include:

       - Assurance that the processing of non-SSA work will not interfere with the prompt
         and effective completion of SSA work;

       - Funding for the non-SSA work will be provided in advance and SSA funding will
         only be used for the purposes of title II and title XVI; and

       - How the costs of the DDS will be allocated between the SSA and the non-SSA work.




Summary of Single Audit Oversight Activities (A-07-02-32035)                                  E-3
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Francis W. Fernandez, Director, Western Audit Division (510) 970-1739

       Mark Bailey, Deputy Director, Western Audit Division (816) 936-5591


Acknowledgments

In addition to those named above:

       Shannon Agee, Lead Auditor

       Wanda Craig, Auditor

       Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-02-32035.




Summary of Single Audit Oversight Activities (A-07-02-32035)
                             DISTRIBUTION SCHEDULE

                                                                              No. of
                                                                             Copies

Commissioner of Social Security                                                 1
Management Analysis and Audit Program Support Staff, OFAM                      10
Inspector General                                                               1
Assistant Inspector General for Investigations                                  1
Assistant Inspector General for Executive Operations                            3
Assistant Inspector General for Audit                                           1
Deputy Assistant Inspector General for Audit                                    1
  Director, Systems Audit Division                                              1
  Director, Financial Management and Performance Monitoring Audit Division      1
  Director, Operational Audit Division                                          1
  Director, Disability Program Audit Division                                   1
  Director, Program Benefits Audit Division                                     1
  Director, General Management Audit Division                                   1
Team Leaders                                                                   25
Income Maintenance Branch, Office of Management and Budget                      1
Chairman, Committee on Ways and Means                                           1
Ranking Minority Member, Committee on Ways and Means                            1
Chief of Staff, Committee on Ways and Means                                     1
Chairman, Subcommittee on Social Security                                       2
Ranking Minority Member, Subcommittee on Social Security                        1
Majority Staff Director, Subcommittee on Social Security                        2
Minority Staff Director, Subcommittee on Social Security                        2
Chairman, Subcommittee on Human Resources                                       1
Ranking Minority Member, Subcommittee on Human Resources                        1
Chairman, Committee on Budget, House of Representatives                         1
Ranking Minority Member, Committee on Budget, House of Representatives          1
Chairman, Committee on Government Reform and Oversight                          1
Ranking Minority Member, Committee on Government Reform and Oversight           1
Chairman, Committee on Governmental Affairs                                     1
Ranking Minority Member, Committee on Governmental Affairs                      1

Summary of Single Audit Oversight Activities (A-07-02-32035)
Chairman, Committee on Appropriations, House of Representatives              1
              Ranking Minority Member, Committee on Appropriations,
  House of Representatives                                                       1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        96




Summary of Single Audit Oversight Activities (A-07-02-32035)
                   Overview of the Office of the Inspector General
                                          Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
